<html>
<title> - THE CONSUMER PRODUCT SAFETY COMMISSION: THE NEW CHAIRMAN'S AGENDA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   THE CONSUMER PRODUCT SAFETY COMMISSION: THE NEW CHAIRMAN'S AGENDA
=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 4, 2002

                               __________

                           Serial No. 107-128

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________



                          U.S. GOVERNMENT PRINTING OFFICE
81-957                            WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 DIANA DeGETTE, Colorado
  Vice Chairman                      LOIS CAPPS, California
ED WHITFIELD, Kentucky               MICHAEL F. DOYLE, Pennsylvania
BARBARA CUBIN, Wyoming               CHRISTOPHER JOHN, Louisiana
JOHN SHIMKUS, Illinois               JANE HARMAN, California
JOHN B. SHADEGG, Arizona             HENRY A. WAXMAN, California
ED BRYANT, Tennessee                 EDWARD J. MARKEY, Massachusetts
GEORGE RADANOVICH, California        BART GORDON, Tennessee
CHARLES F. BASS, New Hampshire       PETER DEUTSCH, Florida
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
MARY BONO, California                ANNA G. ESHOO, California
GREG WALDEN, Oregon                  JOHN D. DINGELL, Michigan,
LEE TERRY, Nebraska                    (Ex Officio)
ERNIE FLETCHER, Kentucky
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Stratton, Harold D., Jr., Chairman, U.S. Consumer Product 
      Safety Commission..........................................     6

                                 (iii)

  


   THE CONSUMER PRODUCT SAFETY COMMISSION: THE NEW CHAIRMAN'S AGENDA

                              ----------                              


                      WEDNESDAY, SEPTEMBER 4, 2002

              House of Representatives,    
              Committee on Energy and Commerce,    
                    Subcommittee on Commerce, Trade and    
                                       Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:11 p.m. , in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Bass, Markey, and 
Gordon.
    Staff present: Kelly Zerzan, majority counsel; Brendan 
Williams, legislative clerk; and Jonathan Cordone, minority 
counsel.
    Mr. Stearns. The subcommittee will come to order. And let 
me welcome all of you back as Congress starts this session. And 
welcome to today's hearing entitled The Consumer Product Safety 
Commission: The New Chairman's Agenda. As the title suggests, 
we welcome the new Consumer Product Safety Commission Chairman 
Hal Stratton to the subcommittee. We are pleased to have Mr. 
Stratton, a former New Mexico State legislator and attorney 
general, testifying before the committee this afternoon.
    The Commerce, Trade, and Consumer Protection Subcommittee 
has not held hearings on the CPSC to date, although that 
certainly has not been for lack of interest on our part. 
Unfortunately, without a confirmed chairman, the CPSC has been 
legally without a quorum since May 2002, which has prevented 
the Commission from fully exercising its enforcement authority. 
For instance, it has been unable to impose civil penalties, 
issue subpoenas, accept settlements, mandate recalls, issue 
complaints or rules, adopt a budget, or even enact an operating 
plan.
    The arrival of the chairman, Chairman Stratton, remedies 
the idleness at the Commission. With the new chairman now at 
the helm, the Commission can reengage the fight to protect our 
consumers and in particular our most vulnerable citizens, 
including children and seniors, from dangerous and defective 
products.
    The CPSC is an important commission that has been tasked by 
statute with protecting the public against unreasonable risks 
of injuries associated with consumer products. The CPSC has 
jurisdiction over more than 15,000 kinds of consumer products 
used in and around our homes in sports, in recreation, and in 
our schools.
    As a commission with broad consumer protection 
jurisdiction, the CPSC can be a very valuable bully pulpit. 
This office can be and should be used as an effective means of 
distributing information on dangerous products subject to 
recall and for disseminating important consumer education 
information. It is not the job of the CPSC, however, to use 
that pulpit as a substitute for Commission action. If an 
individual or a company is breaking the law and putting the 
public in danger, the Commission should take action in regular 
order. Moreover, the job of the CPSC is to actively enforce the 
law as enacted by Congress. Thus, if the Commission believes 
that the Consumer Product Safety Act needs to be changed, we 
certainly welcome his suggestions.
    I am pleased to know that Chairman Stratton is in agreement 
with me that the Commission's mission is to enforce the law. 
Indeed, one of the first actions taken by him was to impose a 
$1 million civil penalty against General Electric for failing 
to report to the CPSC in a timely manner a defect in certain 
models of its dishwashers. For the protection of our citizens, 
it is important that companies understand the importance of 
complying with the law. Moreover, I agree with and support his 
efforts directed at enhancing the Commission's efficiency by 
strengthening its information-sharing activities with other 
Federal and State agencies. Furthermore, as noted, it is 
important that the CPSC explore improving its ability to 
communicate important consumer product safety information to 
the American public.
    Speaking of information, I believe that a critical function 
of the Commission is the collection and analysis of consumer 
product safety data. Therefore, I urge you, Mr. Chairman, to 
consider a rigorous review of the Commission's data collection 
and review processes with the objective of improving the 
quality of both the data and its analysis.
    Mr. Chairman, I also agree with you that as the number of 
consumer products that are imported grow exponentially, the 
Commission should explore ways of enhancing its oversight of 
these products. Let me suggest that one way of doing so is for 
the Commission to work closely with industry standards-setting 
organizations in general, and with international forums 
specifically.
    As for specific issues of interest to this committee, I am 
sure you are aware that a number of committee members have 
introduced bills that involve the CPSC. I, for example, have 
introduced a bill calling on the Commission to set fire safety 
standards for cigarettes. I know my colleague, who is acting as 
ranking member today, the gentleman from Massachusetts, Mr. 
Markey, has a keen interest in that issue and also in Federal 
regulation of fixed-site amusement parks. I agree with my 
colleague that we should at least, with the Commission's input, 
explore the fire-safe cigarette issue; yet, I respectfully 
disagree with him that there is a need for Federal regulation 
of fixed-site amusement parks. Those sites enjoy a great safety 
record as evidenced by the fact that in the year 2000, out of 
the 320 million visits to those sites, only 125 visitors were 
hospitalized for injuries. State government oversight of such 
facilities has proven to be very effective.
    And, finally, I would like to bring to your attention two 
other bills. The first was introduced by the distinguished 
ranking member of this subcommittee Mr. Towns, who is not with 
us today, from New York, and my colleague from Illinois on this 
side Mr. Shimkus, addressing children's sleepwear. The second 
piece of legislation which I support was introduced by my 
colleague from New Hampshire Mr. Bass giving the CPSC 
jurisdiction over a brand new innovative personal mobility 
device called the Segway.
    The CPSC has a full plate of issues before it, and I am 
confident, Chairman Stratton, you will address each of these 
issues with the same professionalism and experience properly 
fitting the post. So I thank you very much for accepting the 
position--and I mean that sincerely--and thank you for 
testifying this afternoon before the subcommittee, and I look 
forward to working with you in the months ahead.
    [The prepared statement of Hon. Cliff Stearns follows:]
  Prepared Statement of Hon. Cliff Stearns, Chairman, Subcommittee on 
                Commerce, Trade, and Consumer Protection
    Welcome to today's hearing titled ``The Consumer Product Safety 
Commission: The New Chairman's Agenda.'' As the title suggests, we 
welcome the new Consumer Product Safety Commission (CPSC) Chairman, Hal 
Stratton, to the subcommittee.
    We are pleased to have Mr. Stratton, a former New Mexico state 
legislator and Attorney General, testifying before the Committee this 
afternoon.
    The Commerce, Trade, and Consumer Protection Subcommittee has not 
held hearings on the CPSC to date, although that certainly has not been 
for lack of interest. Unfortunately, without a confirmed Chairman, the 
CPSC has been legally without a quorum since May 2002, which has 
prevented the Commission from fully exercising its enforcement 
authority. For instance, it has been unable to impose civil penalties, 
issue subpoenas, accept settlements, mandate recalls, issue complaints 
or rules, adopt a budget, or even enact an operating plan. The arrival 
of Chairman Stratton remedies the idleness at the Commission. With a 
new Chairman now at the helm, the Commission can re-engage the fight to 
protect consumers, and in particular our most vulnerable citizens, 
including children and seniors, from dangerous and defective products.
    The CPSC is an important Commission that is tasked by statute with 
protecting the public ``against unreasonable risks of injuries 
associated with consumer products.'' The CPSC has jurisdiction over 
more than 15,000 kinds of consumer products used in and around the 
home, in sports, recreation and schools.
    As a Commission with broad consumer protection jurisdiction, the 
CPSC can be a valuable bully pulpit. This office can be, and should be, 
used as an effective means of distributing information on dangerous 
products subject to recall, and for disseminating important consumer 
education. It is not the job of the CPSC, however, to use that pulpit 
as a substitute for Commission action. If an individual or company is 
breaking the law and putting the public in danger, the Commission 
should take action in regular order. Moreover, the job of the CPSC is 
to actively enforce the law as enacted by Congress. Thus, if the 
Commission believes that the Consumer Product Safety Act needs to be 
changed, we certainly welcome those suggestions.
    I am pleased to know that Chairman Stratton is in agreement with me 
that the Commission's mission is to enforce the law. Indeed, one of the 
first actions taken by Chairman Stratton was to impose a $1 million 
civil penalty against General Electric for failing to report to the 
CPSC in a timely manner a defect in certain models of its dishwashers. 
For the protection of our citizens, it is important that companies 
understand the importance of complying with the law.
    Moreover, I agree with and support your efforts directed at 
enhancing the Commission's efficiency by strengthening its information 
sharing activities with other federal and state agencies. Furthermore, 
as you have noted, it is important that the CPSC explore improving its 
ability to communicate important consumer product safety information to 
the American public. Speaking of information, I believe that a critical 
function of the Commission is the collection and analysis of consumer 
product safety data. I would urge you, Mr. Chairman, to consider a 
rigorous review of the Commission's data collection and review 
processes with the objective of improving the quality of both the data 
and analysis.
    Mr. Chairman, I also agree with you that as the number of consumer 
products that are imported grow exponentially, the Commission should 
explore ways of enhancing its oversight of such products. Let me 
suggest that one way of doing so is for the Commission to work closely 
with industry standard setting organizations in general and within 
international forums specifically.
    As for specific issues of interest to this Committee, I am sure we 
aware that a number of Committee members have introduced bills 
involving the CPSC. I, for example, have introduced a bill calling on 
the Commission to set fire-safety standards for cigarettes. I know my 
colleague from Massachusetts, Mr. Markey, has a keen interest in that 
issue and also in federal regulation of fixed-site amusement parks. I 
agree with my colleague that we should at least, with the Commission's 
input, explore the fire-safe cigarette issue. Yet, I respectfully 
disagree with him that there is a need for federal regulation of fixed-
site amusement parks. Those sites enjoy a great safety record as 
evidenced by the fact that in the year 2000, out of the 320 million 
visits to those sites, only 125 visitors were hospitalized for their 
injuries. State government oversight of such facilities has been proven 
to be very effective.
    Finally, I would bring to your attention two other bills. The first 
was introduced by the distinguished ranking member of the subcommittee, 
Mr. Towns, and my colleague from Illinois, Mr. Shimkus, addressing 
children's sleepwear. The second legislation, which I support, was 
introduced by my colleague from New Hampshire, Mr. Bass, giving the 
CPSC jurisdiction over an innovative personal mobility device called 
the Segway.
    The CPSC has a full plate of issues before it and I am confident 
that Chairman Stratton will address each of these issues with the 
professionalism and experience properly befitting the post. Thank you 
Chairman Stratton for testifying before this subcommittee today, and I 
look forward to working with you into the future.

    Mr. Stearns. With that, I welcome the ranking member, the 
gentleman from Massachusetts.
    Mr. Markey. I thank the gentleman very much, and I thank 
the gentleman for conducting this very vigorous schedule. We 
are the first subcommittee in the House of Representatives to 
have a hearing. I know that it pleases everyone in the audience 
that they are the first hearing after the break. You can see 
the incredible enthusiasm that they have for being the first 
people to make the adjustment from the summer into the fall 
schedule, and I want to congratulate you for providing that 
kind of leadership.
    And to you, Mr. Chairman, welcome to Congress.
    Mr. Stratton. Thank you.
    Mr. Markey. It is a wonderful institution. It is one that 
is not as fully appreciated by independent agencies as it could 
be, but only because there is never a full appreciation for how 
much we want to work hand in glove with independent agencies in 
order to accomplish more good for the public. But we 
congratulate you. It is a high honor, indeed, that you now 
hold, a great responsibility indeed.
    The CPSC was, in fact, established pursuant to the Consumer 
Product Safety Act, which streamlined and consolidated Federal 
safety regulatory activity relating to consumer products within 
the Consumer Product Safety Commission. In my opinion, this 
agency is a huge government success story. With a limited 
budget and resources, it has been responsible for actions that 
have saved the lives of countless Americans and protected many 
more from serious injury. The CPSC is the government agency 
that makes sure that cribs, toys, and other products in our 
homes or around schools or in recreational areas are not 
hazardous and recalls them when they are hazardous. The CPSC 
oversees the safety of 15,000 different kinds of consumer 
products. This is an agency with a long history of safeguarding 
the public and particularly children from commercial products 
that cause harm or threatens the safety of children.
    This hearing is quite timely for us because it gives us an 
opportunity at the outset of the new chairman's tenure to 
ascertain his agenda and to identify ways in which the agency 
can perform its functions better and how Congress can 
supplement the authority and resources of this Commission so 
that it can do even more good than it has in the past.
    I have introduced three bills that address certain CPSC 
issues. The first, H.R. 1488, would restore the jurisdiction of 
the Consumer Product Safety Commission over fixed-site roller 
coasters and amusement park rides for safety purposes. In 1999, 
4 people died in 5 days at 3 different amusement parks; yet, 
because of a special interest loophole in our consumer product 
safety laws, the CPSC was and is totally powerless to do 
anything about it. The Nation's chief product safety watchdog 
cannot even send an investigator to find out what happens when 
people die on these machines. The Consumer Product Safety 
Commission cannot make safety recommendations. They cannot 
ensure that every other park with the same or similar ride is 
even informed of the causes of accidents, and it cannot take 
any preventative action. Meanwhile, every time a park builds a 
new ride, it is faster, more thrilling, closer to edge of 
safety than the last one.
    According to CPS data gleaned from hospital emergency 
rooms, serious injuries on fixed-site roller coaster rides have 
soared 95 percent since 1995. Still we do nothing. Roller 
coasters are huge, complicated machines that hurdle children 
through space at 100 miles per hour with the force of the space 
shuttle. My bill would give the Consumer Product Safety 
Commission the same jurisdiction over such rides that it 
currently has over bicycles or cribs or other devices that, in 
fact, are much less dangerous and move at a much slower speed 
than roller coasters do.
    The second bill, the John Joseph Moakley Memorial Fire 
Safety Cigarette Act of 2002, requires the Consumer Product 
Safety Commission to establish a fire safety standard for 
cigarettes to reduce the risk of ignition presented by 
cigarettes. Every year almost 1,000 lives are lost and $400 
million in property damage occurs due to cigarette fires that 
could be prevented with current technology. This legislation is 
the first step in reducing the loss of human life and property 
and the number of fires firefighters must respond to caused by 
careless handling of cigarettes.
    And, finally, I have introduced, along with Mrs. Capps and 
other committee colleagues, the Consumer Product Risk Reporting 
Act. This legislation is designed to remedy deficiencies in the 
Commission's authority by eliminating the cap on civil 
penalties for violations of product safety laws, increasing the 
penalty for a knowing and willful criminal violation, and 
giving the Consumer Product Safety Commission the authority to 
overrule a remedy chosen by a manufacturer to address a 
defective product in a product recall.
    It is worth noting that during Chairman Stratton's first 
week in office, the Commission fined General Electric $1 
million for 3.1 million faulty dishwasher switches. Now, that 
fine is a paltry sum for a company of G.E.'s size and for a 
violation of such significance. Austin Powers might think that 
$1 million is a huge sum, but in 2002 that fine simply doesn't 
serve as a deterrent to a company the size of General Electric, 
and Congress must act to remedy the current cap to give you, 
Mr. Chairman, the sufficiently strong deterrent power which you 
must--which you need in order to scare these companies, in many 
instances, into doing the right thing because of their fear, 
because of the paranoia that your Commission can induce by the 
sure and certain knowledge that you are not limited in the 
amount of penalty which you can impose upon these firms that 
are creating, in fact, conditions that are very dangerous not 
only to children, but to every other adult in our society.
    I thank you, Mr. Chairman, for calling this very important 
hearing. And, once again, I welcome you to the national public 
debate, Chairman Stratton.
    Mr. Stearns. And I thank my distinguished colleague from 
Massachusetts.
    And the gentleman from Tennessee.
    Mr. Gordon. Mr. Chairman, let me just say that I have 
enjoyed your opening comments, both, and that they have been 
informative.
    [Additional statement submitted for the follows:]
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce
    Thank you, Mr. Chairman, for calling this important hearing. I am 
pleased to welcome the new Chairman of the Consumer Product Safety 
Commission (CPSC), Hal Stratton, to the Committee. As the Committee on 
Energy and Commerce has jurisdiction over all consumer affairs and 
consumer protection issues, we are pleased to have you here today to 
describe your agenda for the future of the CPSC.
    Although a small agency in size, the CPSC has a remarkably large 
responsibility to help keep American consumers safe from defective and 
dangerous products. As a litigator and former Attorney General for the 
state of New Mexico, you will find yourself at home heading an agency 
dedicated to protecting the American consumer.
    In reviewing your testimony, a couple of points caught my 
attention. Specifically, I hope that you will succeed in your mission 
to increase recall effectiveness. There are a number of ideas that have 
been floated to increase the percentage of consumers responding to 
recall notices. One in particular, to require manufacturers to include 
a postage-paid response card with each product, is one that should be 
justified on the merits. The CPSC should study this issue carefully, 
and any action should be justified by the data.
    Additionally, you note in your testimony that you want to enhance 
the consumer education information supplied by the Commission. I 
wholeheartedly support this goal. An expensive and time-consuming 
product recall is not the only way to ensure consumer safety. Education 
and outreach programs aimed at the consumer should be the very first 
line of defense. Not only can such programs help consumers make 
informed product decisions, but can also help people use those products 
in safe and responsible ways.
    I hope that we can have an open dialogue regarding the future needs 
of your Commission and the goals of this Congress. Thank you, Chairman 
Stratton, for coming before this Committee today and I look forward to 
hearing your testimony.

    Mr. Stearns. With that, Mr. Chairman, we welcome you for 
your opening statement.

 STATEMENT OF HAROLD D. STRATTON, JR., CHAIRMAN, U.S. CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Mr. Stratton. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today. It is an honor to come talk here, 
and it is, quite frankly, a lot of fun. So I appreciate you 
asking me over. I have to note that you have been asking me to 
do this for a while, back through earlier this year, and I 
apologize for taking so long to get confirmed, but it did take 
a little longer than we expected, and I will try to do better 
next time. I wasn't confirmed until July 25, and I was sworn in 
on August 2. That is when the Commission then resumed its 
quorum, which, as you indicated, it lost. I believe actually on 
May 2 was when the quorum was lost.
    I will also point out, however, that notwithstanding the 
fact that a quorum existed up until the 1st of May, that there 
was no chairman at the Commission, which is really the 
administrative person running the Commission, since last 
November. So it has been difficult. And I must say, based upon 
what I have seen since I have been there, they have done a 
pretty good job over there getting along without a chairman and 
without a quorum.
    And I must say, when it comes to the G.E. Settlement, as 
the Congressman pointed out, it came in my first week, so the 
staff has to be given a lot of credit for continuing to work on 
that, along with the Briggs & Stratton settlement that we also 
had that same week and a couple of other recalls.
    I have filed a written statement for the record, and I 
believe I have provided you with my Senate testimony and, if 
not, my written statement in the Senate. And rather than read 
that, I think I will just highlight that for you, and then we 
can get on with whatever questions you have.
    Once again, I have been there--although I was sworn in on 
August 2, I have only been in my office since last Wednesday, 
so that was my first day. It took a little--it turned out to be 
a little more difficult to get the family moved from New Mexico 
and out to Maryland than I thought it would, so it took a 
little while. We were working--I will say, our staff was in and 
working.
    I told the Senate that I didn't have an agenda for this 
position, and what I meant by that was not what we are talking 
about here today. What that meant was I don't have any 
political agenda for this position. The agenda that I have is 
to get as many consumer products that cause an unreasonable 
risk of death or injury to consumers off the market as quickly 
as possible in accordance with the Consumer Product Safety Act 
as passed by Congress.
    There is a number of ways to do that. You know what they 
are; they are in the act. They are by recalls. They are by the 
penalties that the Congressman has talked about, we have got 
injunctive power, and also by setting standards, voluntary and 
mandatory.
    So that is what our agenda is, pure and simple, and I find 
it, frankly, fairly easy to determine what Congress's intent is 
by looking at the statute. And I--I don't know whether that 
comes from being a lawyer, a former legislator, a former 
attorney general, or maybe all of those put together, but it is 
pretty clear to me that this Congress wants unsafe consumer 
products out of the market regardless of what the other 
considerations are, other political considerations or any other 
type of considerations. And so we understand what you want, and 
it is going to be our intent to be very tough on those who 
knowingly or even negligently without remedying it put these 
kind of products in the market.
    By the same token, I would hope--I hope our staff, if they 
listen to our direction, will work very closely with those 
companies out there that are willing to work with us and 
cooperate and do recalls and do the right thing. We plan to 
work with them and try to get those products off the market as 
quickly as possible. The goal is not necessarily to be punitive 
and not necessarily to penalize people for the purpose of 
getting headlines in the newspapers, but first and foremost to 
get the products off the market and get them out of the hands 
of consumers who they might harm. Now, that doesn't mean you 
don't go forward and penalize people for the deterrent reason 
or for whatever reason, but that is what our No. 1 goal is, and 
that is it pure and simple, and that is the agenda.
    I did mention, and I will just mention them here, two or 
three areas that I thought that we would work on kind of 
outside of that statutory agenda or as part or as a subpart of 
that agenda. The first one is better communication with the 
agencies. As you mentioned, Mr. Chairman--actually, you set out 
a good statement of my agenda, but I will just kind of 
reiterate and highlight what we are planning on, and that is 
better cooperation amongst agencies. We have seen how important 
that is with our agencies; I have seen it in the past in the 
law enforcement area, and I have seen what happens when law 
enforcement agencies cooperate, and I have seen what happens 
when they don't cooperate. And I can tell you, it is a lot 
better when they cooperate. And we are going to do our very 
best to cooperate with other Federal agencies of the Federal 
Government and State and local jurisdictions to get as much 
information-sharing and as much information as we can have.
    We have recently signed an agreement with Customs to try to 
get more information from them, for them to be able to provide 
us more information. So we are hoping that that will be a step 
in that direction to obtain more information from Customs on 
imported products.
    Also, the thing I hear from everybody, particularly my 
family I might add, is how are we going to get notified about 
these recalls? How are we going to get information from the 
Commission? What is the process to do that? What, can't you do 
it better?
    I would suggest that if it could be done a whole lot 
better, they probably would have done it by now. I don't think 
there is any will not to find a good way to notify consumers 
over at the Commission. I think they are doing what they can, 
and I think the best vehicle that we have right now is the 
media. And I today am not here to tell you that I have some big 
grandiose plan that I have managed to derive to increase that 
contact, but that is going to be a No. 1 goal, because no 
matter how good our information is, if we don't get it out to 
consumers, it doesn't make a lot of difference. So, that is No. 
2. And we are open to all suggestions on that. Once again, we 
don't have any prearranged agenda, but we do think it is a very 
good function and something that needs to be improved.
    Finally, as I indicated in regard to the Customs agreement, 
we do want to work more on imported products. Most of the toys 
and things like that are made overseas, so we need to make sure 
that we cover that subject and that we have an ability to 
determine products that are coming into the country that do not 
meet the provisions of the CPSA. And we also, I think, need to 
maybe--since we do have a global market now, that we need to do 
a better job at coordinating with other countries and 
harmonizing our laws with other countries and working with them 
in the future. So that, Mr. Chairman, that is generally a 
synopsis of what we plan to do.
    I want to say to you, Mr. Chairman, I want to thank you for 
your courtesy in meeting with us today. I personally, along 
with anybody on my staff, am available at any time to meet with 
Congress. We want to do this the way Congress wants us to do 
it, and we look forward to working with you toward that goal. 
Thank you.
    [The prepared statement of Harold D. Stratton, Jr., 
follows:]
      Prepared Statement of Harold D. Stratton, Jr., Chairman and 
            Comissioner, Consumer Product Safety Commission
    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as Commissioner and Chairman of the U.S. Consumer 
Product Safety Commission (CPSC). I welcome the opportunity to appear 
before your committee.
    By way of introduction, I would like to begin by telling you about 
myself.
    I was born in Muskogee, Oklahoma and reared in Oklahoma City. My 
father served in the 8th Air Force as a B-17 pilot in World War II and 
subsequently practiced law for over 35 years. My mother, sister, and 
her family, continue to live in Tahlequah, Oklahoma, the capital of the 
Cherokee Nation, of which I am an enrolled member.
    I attended the University of Oklahoma where I received degrees in 
geology and law. Subsequent to graduating from law school, I served my 
Army ROTC commitment on active duty in the United States Army. 
Thereafter, in early 1977, I permanently moved to Albuquerque to begin 
my career in the private practice of law and to live in the varied and 
diverse culture and environment that is New Mexico.
    In 1978, I was elected to the New Mexico House of Representatives 
where I served four terms. Among other positions, I served as chairman 
of the Judiciary Committee, vice chariman of the Energy and Natural 
Resources Committee--and, one term as a member of the Transportation 
Committee.
    In 1986, I was elected to the office of New Mexico Attorney General 
where I oversaw the state's only dedicated consumer protection agency 
and the state's largest white collar crime prosecution unit.
    Since the state constitution limited me to one term as attorney 
general, I reentered private law practice in Albuquerque in 1991.
    During my career, I have been honored to argue and handle cases 
before a number of courts, including the United States Supreme Court.
    Throughout my career, my highest priority has been to work and to 
serve my community with honesty, integrity, impartiality and fairness, 
toward my employees, other state executive and legislative officials, 
my collegues in the legal community and, most importantly, toward the 
people I have served.
    As I stated at my confirmation hearing, it is my sincere commitment 
to serve the people of this country with integrity, fairness, and with 
independent unbiased judgement. This is the way I approached my role as 
a consumer advocate in New Mexico and I look forward to continuing this 
role at the national level.
    On a personal note, my wife Theresa, and I are the proud parents of 
two daughters, Alexandra, age 7, and Claire, who is 3. As parents, we 
fully appreciate the importance of consumer product saftey for all 
American families. As a father of two young children, I can assure you 
that I think about product safety every day.
    The Congress has vested CPSC with the power to affect the safety of 
every consumer in America. The commission's actions have saved many 
lives; prevented many injuries; substantially improved the safety of 
countless consumer products; and heightened the public's awareness and 
knowledge about consumer product safety.
    As a former state legislator, I very much appreciate the important 
role this committee plays in consumer protection. My job is to enforce 
the laws that you pass. Consequently, I would welcome a continuing 
dialogue with you to insure that the commission understands the 
committee's positions and provides the committee with the information 
it needs to effectively perform its legislative responsibilities. My 
staff and I will make every effort to be available to you in a formal 
or informal setting. I hope that the committee members will let us know 
what they are thinking on these important issues.
    In the short time that I have been on the job, I have had the 
opportunity to work closely with many of the CPSC staff, and have been 
impressed with their professionalism. A transition time is always 
challenging, but it is also rewarding.
    Although I have been on the job in this position only a few days, I 
would like to respectfully suggest a few general areas that I believe 
are important to the success of the CPSC's mission.
    First, it is our intent to administer and carry out the mandate of 
the Consumer Product Safety Act as written and in accordance with the 
intent of congress. This means eliminating from the market consumer 
products that create an unreasonable risk of injury or death.
    With respect to unreasonably dangerous products, I encourage 
companies that discover such products that require action to notify the 
CPSC immediately, as the law requires. We will do everything we can to 
work with them to remedy the problem in a way that protects the public.
    Companies that withhold such information, and who do not do as the 
law requires, will be dealt with accordingly. The CPSC exists to get 
dangerous products out of the market place. The public takes it 
seriously, I know that you take it seriously, and those who fail to 
disclose unreasonably dangerous products will find out we take it 
seriously at the CPSC.
    In the management area, I intend to explore ways where the 
commission could benefit from increased communication with other 
federal and state agencies. I believe improved information sharing 
betweeen these agencies would enhance CPSC's capabilities and maximize 
the commissions' limited budgetary resources. CPSCs mission often 
complements that of other agencies such as the Department of Justice, 
Bureau of Alcohol, Tobacco, and Firearms, and the Environmental 
Protection Agency, to name a few. As a former state attorney general, I 
have seen both good and bad interagency communications. I know from 
experience that agencies get more done with less when they communicate 
well with other agencies working on similar matters, and build good 
working relationships.
    In addition, I belive it is very important to strengthen and 
enhance the commissions consumer education and information outreach 
programs. To that end, we intend to work hard on increasing the 
effectiveness of consumer product safety education. Educating consumers 
as to product related hazards is an important component of the CPSC's 
mission.
    The problem here is not a lack information. we have plenty of that. 
The commission implements and participates in numerous recalls during 
the course of a year, some big, some small. The problem is getting 
information to the public, and, often, getting people who are 
distracted by the hustle and bustle of day-to-day life to pay attention 
to it. I expect the CPSC to continue to develop more effective ways of 
communicating our message to the public.
    I also believe it is essential to continue to enhance the 
commission's oversight of imported products. CPSC's repsonsibilites 
continue to grow dramaticallly as more and more consumer products enter 
the United States. Working with appropriate government agencies, I 
would like to review existing roceedures and if warranted, attempt to 
improve them.
    Many imported products do not meet our safety standards. There can 
be no question that the most efficient way to protect the public 
against dangerous imported products is to stop them at the border.
    Once again, Mr. Chairman and members of the committee, I am honored 
to be here. I am prepared to respond to your questions.

    Mr. Stearns. Thank you, Mr. Chairman.
    And I will just start out with some of the questions that I 
have. I think you touched on perhaps three of the things that 
we are concerned about one is information-sharing between all 
the government agencies; and, two, just as your wife said, how 
is she going to get notified when there is a discrepancy or 
there is a problem with the product; and, three, your idea of 
what are you going to do about this global market, and how are 
you going to ensure that Americans have products that are safe. 
That is a full agenda for you.
    And I think the thing I was--my first question was--is 
going back to what your wife said to you. Then there does need 
to be a better notification system. Now, should you go on the 
Today Show? Should you somehow try to get evening news 
coverage? I mean, that is what you will have to decide. But I 
think there is a certain element of this media side to get it 
out, because the wheels of government grind very slowly, and 
for your wife to get notified about a product is going to take 
a long time. And so I think you are going to have to--with your 
experience as attorney general, you were elected to attorney 
general, you served in the statehouse for 7 or 8 years, you 
obviously had that skill. So I would urge you to be proactive 
on this basis. And I am not sure that just depending upon the 
government and its wheels to grind out this information is 
going to be enough.
    And, you know, that is what I would say to you. You have 
got to convince Congress and everybody that you are going to be 
proactive here, because your wife and mine want to know what is 
happening and not wait until they continue to buy a poor 
product.
    Mr. Stratton. Mr. Chairman, I only say that I hope I don't 
have a problem with my wife, because if she isn't the first to 
know, then I have bigger problems at home than I have down at 
the Commission.
    I was on the Today Show my first week in office and some 
other shows, and I had made the comment when I was being sworn 
in at the Commission with the employees that I was going to be 
on the job 24 hours a day and 7 days a week, and they took me 
up on it. They came over to the house at 2:30 in the morning in 
Albuquerque, and I had to get up at 1:30. And so I decided that 
if I was going to make those comments, I had to do that. So I 
have already done that, and I have indicated I am going to be 
available to do that any time, any place.
    And I can tell you that I have been very impressed with the 
public affairs staff at the CPSC, to get sworn in on a Friday 
and already have a round of things going on, those shows the 
following Wednesday or Thursday, was pretty quick.
    But I understand what you are saying. I think that is very 
important. I was, quite frankly, surprised at the number of 
people that day that saw me. I attended an event with the Vice 
President that same day, and I was surprised at the number of 
people that actually saw it. So there is no question that it is 
quite effective, and I intend to do as much of that as the 
media will allow.
    The one other thing I would mention, and I would ask 
particularly the print media to help us on this, we need--when 
we send them notice of the recall, we need them to print them. 
And we would ask that those media outlets have a special column 
or at least a special procedure that once they get those, that 
recall information--and they are going to get it from us 
immediately--that they run it.
    You might think that is happening already, but it is not. 
There are a number of very important newspapers in this country 
that don't run that right away, and I know my newspaper in 
Albuquerque, even though we got it to them the day--I think the 
day before we announced it, they didn't run it for a week or 
two. So, I am going to ask all of these media outlets to try to 
cooperate with us, and run that information prominently and as 
quick as they will do it.
    Mr. Stearns. You mentioned in your opening testimony that 
you are going to get tougher on the safety of imported 
products, and you mentioned the global economy that we face. 
And I guess my question is, to you, do you have any specific 
plans perhaps that are new to your agency on how to get this 
goal realized to protect Americans from products that come from 
the Pacific Rim or from the North American continent or the 
European Union in which we do not have complete jurisdiction 
over, and yet these products come in here and consumers are 
using them in their day-to-day activities and finding that they 
are a problem and they are not safe? And so I think that is 
another area where you could help give us some assurance that 
you intend to be aggressive on this and to provide assurance to 
the American public about safety and global products.
    Mr. Stratton. Mr. Chairman, I hope we have taken the first 
step toward doing that by signing this agreement with Customs. 
The best way I know of of interdicting the illegal products is 
to hit them right at Customs and to be notified by Customs. So 
if we can get a relationship going with them to help then 
cooperate with us, that will go a long way toward achieving 
that goal that you just mentioned.
    The other thing we need to do is we need to be just as 
tough on importers as we are on domestic companies who violate 
the act. And if we can't get to the companies in China or 
Europe or wherever they happen to be, we can certainly get to 
their importers and distributors here, and that is where I 
think we will have to begin the enforcement process.
    Mr. Stearns. Mr. Chairman, do you have any way to get to 
the companies in, for example, China or India? I mean, these 
are companies, particularly in China, which I am not sure that 
you could make any kind of impact. So, how do you handle that?
    Mr. Stratton. Mr. Chairman, I frankly don't know the answer 
to that question, but I suspect we can't get to them directly, 
and that is why I say we have to--they all have distributors 
here, and they all have importers here who handle that here on 
this side, and then they all have retailers. So I think we can 
get to them that way, and if they don't have distributors or 
importers doing it, then they are not going to get products in 
the country. They can't do it directly.
    But I must say, you have got me on that one. I will have to 
get that answer for you and get back with you.
    [The following was received for the record:]
    [GRAPHIC] [TIFF OMITTED] 81957.001
    
    [GRAPHIC] [TIFF OMITTED] 81957.002
    
    [GRAPHIC] [TIFF OMITTED] 81957.003
    
    Mr. Stearns. I am going to ask you a couple of questions 
that perhaps--and I am very understanding. You have been on the 
job since Wednesday, and I think you are doing a grand job, I 
mean, and it is going to take a long time to understand all the 
issues. But I present these because they are in the public 
forum, and I think under this kind of hearing that we should 
ask some of these questions just to lay them out.
    The CPSC has spent over $7 million and at least 6 years of 
significant staff time studying the issue of flammability 
standards for children's sleepwear. And I guess the question is 
after all this time and all this money, has this issue been 
resolved? Has the CPS staff relied on good data, or it has 
taken so long because the data is flawed? But perhaps this is 
not a question that you can answer in this short time, but this 
is--certainly long-term Members of Congress have concern. We 
hear about this issue continuing to go on, so I ask you that.
    Mr. Stratton. Mr. Chairman, that is a good question. I 
checked right before I came over here today to see whether that 
had been resolved or we had gotten the latest information from 
staff on it. We had not. All I can say is it seems like a long 
time, to me. And I don't know why it hasn't been resolved, but 
it is something we are going to get resolved as soon as we 
legally and procedurally can. But I can't----
    Mr. Stearns. I understand.
    Mr. Stratton. I can't tell you why it has taken 7 years to 
do anything.
    Mr. Stearns. My time has expired, and if the Members like, 
we will have a second round. But now I yield to the ranking 
member from Massachusetts.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    One of the issues in the news very recently has been the 
rapid growth of West Nile disease across our country and the 
number of fatalities that have been identified related to this 
mosquito-borne disease. And many of the reports in the media 
indicate that children and senior citizens are the ones that 
are most particularly vulnerable to that disease.
    Former CPSC Chairwoman Ann Brown has recently spoken out 
about the concern that many parents may overreact to the 
prospect of their children getting West Nile disease by 
utilizing bug spray and insect repellants containing DEET. Now, 
DEET is actually not recommended nor is it considered to be 
safe for young children, although adults can use it in moderate 
doses. DEET actually is toxic to young kids and should not be 
used for infants under 2 years of age and can sometimes cause 
seizures in toddlers. For kids over 2, repellant containing no 
more than 10 percent DEET is recommended, and parents are 
encouraged to apply the repellant around the child's eyes, 
avoiding the mouth and the eyes.
    Given the concern about West Nile, many parents will be 
purchasing insect repellant products for their homes and 
families. Do you believe that the CPSC has any role in this 
area in ensuring that such products are clearly labeled, that 
parents are warned and are cognizant of the danger of DEET to 
young kids? In fact, as we know and we watch on the news in the 
evenings, in many of these areas we see children being bathed 
in insect repellant by their parents in order to protect them. 
Have you looked at this issue of DEET, and is it something that 
you believe comes under the jurisdiction of the CPSC in terms 
of your responsibility to warn parents about the dangers?
    Mr. Stratton. Mr. Chairman, we have not looked at it that I 
know of. This is the first I have heard of this. Ms. Brown 
hasn't called us about this, as far as I know, so I don't think 
she has notified about her concern about this, nor do I believe 
this is one I have seen in the media, and so this is the first 
I have heard about it. It is something we will be happy to look 
at without coming to a legal conclusion about whether we have 
jurisdiction over that. I mean, if it is a consumer product and 
it is not covered by some other agency or excluded by the act, 
we have jurisdiction.
    On that particular item, I don't know. We will be happy to 
take a look and get back with you immediately and let you know 
what we think.
    Mr. Markey. And so will you give me a call?
    Mr. Stratton. Absolutely.
    Mr. Markey. Okay. I appreciate it.
    Now, on the next issue I need your help, Mr. Stratton. The 
amusement park industry has an admirable safety record in 
general, but just as any other industry that you regulate, 
accidents do happen. Right now if a child is hurt on an 
amusement park ride, the safety response of that accident is 
comically convoluted. If it turns out that the ride was mobile, 
that is, not permanently fixed to the land it sits on--that is, 
one of these traveling carnivals that moves from city to city, 
from State to State--then the CPSC has full authority to 
investigate, order safety changes, and share what it learned 
with other similar ride owners and ride manufacturers. In the 
last 5 years, according to emergency room data, injuries on 
those rides went up 34 percent.
    But if it turns out that the ride was bolted down to the 
site, well, that is a different story for an injured child. In 
its wisdom, Congress has declared that if the ride is fixed, 
that is, can't be moved, as one of the giant roller coasters or 
giant rides, then the Consumer Product Safety Commission cannot 
do its job. It has no jurisdiction. In the last 5 years, 
according to CPSC's emergency room data, injuries on these 
fixed-site rides rose a whopping 93 percent, 35 percent for the 
mobile small rides that go State to State, 93 percent increase 
in emergency room visits over a 5-year period for these fixed-
site rides.
    My question is, does that make any sense to you, Mr. 
Chairman, or do you agree that it would be preferable for you 
to have uniformed regulatory oversight authority so that all 
amusement park riders receive equal protection regardless of 
whether it is a fixed-site or a mobile ride?
    Mr. Stratton. Mr. Chairman, after being on the job since 
Wednesday, on the details of that particular issue I don't 
really feel qualified to give you advice on that today, but it 
is something we would be happy to look at and consider and get 
back with you on that as well.
    I will say this: That right now my general feeling is that 
anything you here in Congress pass and say we should regulate, 
we are going to regulate; and anything you say we shouldn't 
regulate, we are not going to regulate. And that is your 
decision, your prerogative, your responsibility to do that. And 
as far as expanding or contracting the jurisdiction position of 
the Commission, I at this date don't have any real opinion on 
that.
    Mr. Markey. Thank you. Will you give me a call on that one?
    Mr. Stratton. Yes, sir.
    Mr. Markey. Okay. How long do you think it will take here?
    Mr. Stratton. When do you want me to call you?
    Mr. Markey. The end of next week.
    Mr. Stratton. Sure.
    Mr. Markey. Is that enough time?
    Mr. Stratton. Sure.
    Mr. Markey. Is that enough time?
    Mr. Stratton. Sure.
    Mr. Markey. Okay. Thank you.
    Mr. Chairman, I would like to ask that we include in the 
record an article from the Annals of Emergency Medicine, 
January 2002, titled Amusement Park Injuries and Deaths. As you 
know, since 1999, I have sought a public health and safety 
limit on these issues, and I would like to have it included in 
the record at this time.
    Mr. Stearns. By unanimous consent, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81957.004
    
    [GRAPHIC] [TIFF OMITTED] 81957.005
    
    [GRAPHIC] [TIFF OMITTED] 81957.006
    
    [GRAPHIC] [TIFF OMITTED] 81957.007
    
    [GRAPHIC] [TIFF OMITTED] 81957.008
    
    [GRAPHIC] [TIFF OMITTED] 81957.009
    
    [GRAPHIC] [TIFF OMITTED] 81957.010
    
    Mr. Markey. And one final question, if I may, Mr. Stratton. 
Do you support Congress acting to lift the cap on civil 
penalties for violations of product safety laws? Don't you 
think that a $1 million fine of a company the size of General 
Electric is, for them, the equivalent of a parking ticket, just 
the cost of doing business? And it doesn't even show up because 
their numbers are so large that they are dealing with, even as 
a rounding error it doesn't show up. Do you believe that you 
should have a greater ability to impose larger fines on these 
companies?
    Mr. Stratton. Mr. Chairman, first of all, let me say that I 
don't see that as the equivalent of a parking ticket. And the 
reason that I----
    Mr. Markey. Well, to General Electric I said it is the 
equivalent of a parking ticket.
    Mr. Stratton. Or to General Electric. I do not consider 
that to be equivalent of a parking ticket to General Electric, 
and the reason is--is because I think there is a lot more to 
being fined and getting a penalty from the CPSC than just the 
amount of money. So I think there is--there is quite a stigma 
that is attached to that. So I am not quarreling--I am not 
quarreling with your premise, I am just saying that I don't 
think that the amount of money is the only thing to be 
considered in that particular scenario.
    Mr. Markey. Well, you are saying that the stigma that is 
attached from being criticized by CPSC is such an incredible 
public relations disaster for General Electric that that itself 
substitutes for the money that you are not able to extract from 
them as a penalty?
    Mr. Stratton. No, sir, I am not saying that. I am saying 
that is an additional negative aspect.
    Mr. Markey. I agree with that, but what I am saying to you 
is that General Electric is $100 million, $200--a $100 billion, 
$200 billion corporation, and a $1 million fine is so teeny 
tiny that to change its entire chain of consumer products in 
order to avoid--it can only really be given an incentive if the 
financial penalty is so great--you know, with a $1 fine, a 
company, with the stigma, you can get this thing resolved under 
your theory. You know, the dollar amount isn't that important, 
it is just the fact that the CPSC has censored you. But I think 
that each of us makes a decision that--let us put it like this. 
A parking fine of $15 or $20, that is a risk you will run. A 
speeding ticket of $200 or $250 or $300 with the accompanying 
loss of your license, that is something that 99 percent of 
people wouldn't even consider engaging in, Right? So the dollar 
amount does play a role in terms of what the risk is that 
people are willing to run in terms of the crime or the offense 
that they are willing to commit.
    Mr. Stratton. Mr. Markey, I don't disagree with you. And 
let me----
    Mr. Markey. So, are you saying that it is adequate?
    Mr. Stratton. No.
    Mr. Markey. That is my question. Do you believe that the 
cap on you is okay, and you don't want it lifted, and you think 
you can get your work done? Or, if Congress did lift it and 
gave you greater discretion, would that be something that you 
would receive with your approval?
    Mr. Stratton. Well, I think it is something we need to look 
at and we need to consider. But let me point out one thing. It 
is not just--it is not as simple as raising the caps. I mean, 
the cap is $1.65 million. So, the cap is more than $1.5 
million, it is not $1 million. And you might ask the question--
in fact, I have been asked the question: Why didn't we get more 
than a million? Why didn't we get the $1.65 million, because it 
is G.E., and because the conduct is somewhat egregious in some 
people's opinion. And the answer is it was a settlement prior 
to litigation. We wanted $1.65 million; they didn't want to pay 
anything. The lawyers get together and they--including the 
Justice Department, because as you know, the Justice Department 
gets involved in this, and the lawyers get together, and you 
come to some compromise without litigation.
    Regardless of what the caps are, if there are no caps 
whatsoever, I can just tell you as a litigator for the last 25 
years that the more money you try to get from somebody, the 
more resources you are going to spend trying to get it, and 
sometimes you have to do that. And I don't disagree with doing 
that, and I think many times it needs to be done. And that 
might very well have been a case that we needed to do it. But I 
hope in considering whether the caps are lifted, I hope if you 
do lift the caps and you expect us to get $10 or $20 or $100 
million penalties from people, that you will give us the 
resources to proceed to do that. We need the litigation 
resource, including the lawyers and all the other litigation 
support, to go after that.
    Really and frankly, right now I don't know whether--I mean, 
some people have criticized me for even mentioning this, but I 
think industry knows this and business knows this. Right now 
our biggest problem isn't the cap; our biggest problem is 
having the resources to push it up to the limit of the cap and 
get that money.
    Mr. Markey. Right. But you were attorney general in the 
State of New Mexico.
    Mr. Stratton. Yes, sir.
    Mr. Markey. So you know that as a negotiator, if the other 
side already knows what your upper limit is going into a 
negotiation and in a settlement, that they have the upper hand. 
On the other hand, if you as the attorney general of New Mexico 
had this unlimited ability now to impose a penalty, you were in 
a position from the public's perspective, protecting everyone 
in the community, not just the corporation, to extract a good 
result that would leave the public protected for the long term.
    Right now every company, every corporation that you are 
negotiating with knows what the upper limit is. They know it is 
$1.6 million. And you are handicapped, your hands are tied, 
because they come in with a very good negotiating position. And 
$1 million is a good result if you can't go any higher than 
$1.6 million, but if you had no cap, Mr. Chairman, as you were 
as attorney general of New Mexico, don't you think you would be 
in a better negotiating position for the public to extract 
public safety protection?
    Mr. Stratton. Generally, yes, if you had the firepower to 
back up your position.
    Mr. Markey. Right. But the firepower is the fine. Now your 
negotiators, your staffers have the ability to go in and 
negotiate with some real clout behind them if the other side 
believes the chairman would accept their recommendation.
    Mr. Stratton. If I may. The firepower is not the ability to 
negotiate; the firepower is the ability to go to court and 
force them to do that if they disagree. And if they won't do 
that, if they just say, we are not going to pay it, we are 
going to see you in court----
    Mr. Markey. Right. But----
    Mr. Stratton. The firepower is having the staying power to 
go into court and be there for several years and get the large 
fine.
    And let me just say, I am not opposed to your legislation. 
I mean, I will go on record right now saying I am not opposed 
to it. And if you pass that legislation, it is just fine with 
me. I just want a little more time before I come to a 
conclusion about what I think is the best course to deal with 
that issue.
    Mr. Markey. But if you want more firepower, you want more 
staffing, you tell us what you want, we will give it to you. 
Tell us how many more people you want to be able do this. But 
let me also say this to you in terms of firepower: You may not 
be given permission by OMB to ask for any more firepower, but 
nonetheless, we would be willing to give--unless you want----
    Mr. Stratton. We have a budget request.
    Mr. Markey. If you work for the nuclear department, they 
will give it to you. Okay? If you want Star Wars, they will 
give it to you. But for consumers, I doubt that they will give 
you any more firepower, so you are kind of stuck with what you 
have got.
    But what I am saying to you is that as the protector of the 
public, the other side should be in a very uncertain world, and 
you would get a much faster negotiated settlement if they knew 
that your recommendation were ultimately to be to go to court 
to get $20 or $30 or $40 million settlement and not $1.6 
million, and that your side, your team, would be able to get a 
settlement early and to get these defective products off the 
marketplace.
    We are talking about 3.1 million dishwashers that had a 
defective product that could cause fires. So all you need is 
three or four fires. With the average house or homes in the 
United States right now, it hits $1 million after three fires, 
if the homes burn down, and we are talking about 3 million 
dishwashers that could have this defect. So the sooner you are 
able to go in and effectively negotiate, the sooner the public 
doesn't have to worry that this inherent defect could, like a 
lottery ticket, come to their home, burn it down, lose their 
life savings, but perhaps also lose the lives of some family 
members.
    We are on your team. We want to help you. We know you want 
to do a good job, and we will do our best for you.
    Mr. Stearns. Thank the gentleman.
    The gentleman from New Hampshire is recognized.
    Mr. Bass. Thank you, Mr. Chairman.
    And congratulations, Chairman Stratton.
    Mr. Stratton. Thank you.
    Mr. Bass. And I apologize for having come in slightly late 
and missed your opening statement.
    I heard my friend from Massachusetts talk about the 
amusement ride issue, which is interesting to me, with the 
number of amusement rides in my home State as well. I recall 
from my legislative days that we in New Hampshire have a bureau 
in the Department of Safety that regulates ski areas, amusement 
rides, and something else I can't recall. And I believe that 
they have standards that are equal to or greater than any of 
the standards that are promulgated by CPSC for mobile--for 
mobile amusement systems. I just recall that, and it is old 
information.
    The other thing is it seems to me that increases in 
accidents may be significant, but they may also not take into 
account the fact that these fixed facilities now, instead of 
having one roller coaster, might have eight or four or three. 
And, therefore, I think it might be helpful in the debate 
perhaps, if this continues to be an issue, to have CPSC do some 
sort of a study to determine which States have regulations in 
place that are adequate, and whether or not these increasing 
number of accidents which on the face of it appear to be pretty 
alarming are the result of factors outside of lack of Federal 
regulation.
    Mr. Markey. Would the gentleman yield just briefly?
    Mr. Bass. Sure. I would be happy to yield.
    Mr. Markey. From----
    Mr. Bass. And I am not prepared to debate this, but----
    Mr. Markey. I am not going to debate. The point that I am 
going to make here is that I live in Massachusetts. We spent 
every summer going up to vacation in New Hampshire. So, it is 
good news to know that the people in New Hampshire put stronger 
protections on Canobie Lake Park or other amusement park rides 
that my family was on. On the other hand, what happens when New 
Hampshire residents get in their cars and they go to other 
States? It turns out that one-third of all rides in the United 
States are never inspected by anybody at any time. So it is not 
so much that you can protect your own State, because most 
families get on these rides when they are not in their own 
States, when they are traveling on vacations with their kids, 
and they assume that the other State has the same protections 
that their home State has.
    Mr. Bass. It would be interesting to examine those issues 
in those other States and perhaps determine to start a dialog 
as to why they don't have the kinds of regulatory processes 
that should be in place there. But I wasn't here to discuss 
that.
    I appreciate the chairman's making reference during his 
opening statement to a constituent of mine, Dean Cayman from 
Manchester--he is technically out of my district, I guess--but 
who has invented a personal mobility device called a Segway, 
and from a regulatory standpoint, at this point it is neither 
fish nor fowl. And over the last year and a half or so, I and 
others in Congress have been attempting to assure that CPSC has 
jurisdiction over devices such as this or generically. They are 
low-speed electric personal assistive mobility devices.
    And I was wondering, Chairman Stratton, if you have had a 
chance to think about this, and if you thought--if you could 
give me your views about whether or not you think CPSC should 
have jurisdiction over these types of devices.
    Mr. Stratton. Mr. Chairman, once again I really--I have 
thought about it because I read about it in the Wall Street 
Journal and other places like that. I have not come to a 
conclusion, and I haven't thought it through that much.
    Once again, if you all want to pass a bill that gives us 
jurisdiction, we are more than happy to have it. Maybe we have 
jurisdiction, I don't know. I don't know that the legal staff 
has concluded that yet. But----
    Mr. Bass. Chairman Stratton, would an effort--and you may 
have answered this question already--by Congress to clarify the 
jurisdiction be welcomed on your part?
    Mr. Stratton. Always. Yes, Mr. Chairman and Mr. Bass, it 
would be.
    Mr. Bass. Well, Chairman Stratton, I look forward to 
working with you on this matter over the next few months. And I 
will yield back to the chairman.
    Mr. Stratton. Thank you.
    Mr. Stearns. The chairman yields back the balance of his 
time.
    The gentleman from Tennessee is recognized. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    Chairman Stratton, welcome to our hearing today.
    Mr. Stratton. Thank you.
    Mr. Gordon. In your remarks you said that your first 
priority was--and I will quote here--means eliminating from the 
market consumer products that create an unreasonable risk of 
injury or death. What is a reasonable risk of injury or death 
that you are willing to put up with?
    Mr. Stratton. Well, Mr. Chairman, you can't determine that 
here today without knowing the facts and the hypothetical. I 
mean, automobiles create a risk of death. People get killed in 
them all the time. Airplanes do. So----
    Mr. Gordon. You know a lot about the sleepwear, since, 
again, I am sure you have done your homework, I can tell, from 
what you have done here and your staying up nights and your 
getting up early. So you, I am sure, have reviewed this several 
years and several--or thousands of man-hours and women-hours 
working on this. So, if one child is seriously injured or dies 
from the faulty sleepwear, is that enough, or do you need--or 
what do you need? What is reasonable and what is unreasonable 
there?
    Mr. Stratton. Mr. Chairman, I don't know. It depends on the 
circumstances of why that occurred, what the circumstances are. 
But before you can make that decision, I suppose----
    Mr. Gordon. So do you need more information? Have they not 
provided you with enough--is all this 7 years and all this 
time, is that not enough? What else do you need to know?
    Mr. Stratton. I don't--I am sorry, Mr. Gordon, I am not 
sure I know what your question is. What do I need to know about 
the sleepwear standards?
    Mr. Gordon. Well, first of all, I want you to try to tell 
me what was a reasonable risk, and you said you couldn't do 
that without specific information. So then I was saying that 
how much more specific could you be--could you have, I guess, 
than all the information that you have, your organization has 
gathered on the sleepwear. So since you do have a lot of 
information there, I thought that might be able to help you 
explain to me what is the difference between a reasonable risk 
and an unreasonable risk.
    Mr. Stratton. I think first our final staff--I think our 
staff has not completed their final studies on that, and it 
hasn't been provided to me. And I am not aware of the 7 years 
of work they have done on it, being there since last Wednesday. 
I will admit to you I am not privy to everything that they have 
done.
    Mr. Gordon. But you have been studying and getting ready 
for the office, haven't you?
    Mr. Stratton. I have been--you mean during the course of 
confirmation?
    Mr. Gordon. Yes, sir.
    Mr. Stratton. I have been keeping up. I kept up with pretty 
much what I could in the media, but because I was not--I could 
not be presumptuous about being confirmed or act presumptuous 
about being confirmed, I was not having contact with the 
Commission and ordering them to provide me all of this 
information. So I was really not privy to help from the 
Commission until August 2.
    Mr. Gordon. Okay. Well, I am still interested in trying to 
find out what the difference is. Since you--you know, this was 
your testimony. You said, you know, that you want to eliminate 
from the market consumer products that create an unreasonable 
risk of injury and death. So I am just trying--or death. I am 
trying to figure out what is the difference between reasonable 
and unreasonable. I have got a 1\1/2\ year old daughter at 
home. And we live near Rock Creek, and we don't take our 
daughter out if possible in the early evenings or early 
mornings, as recommended, because of mosquitos.
    I am going to go home tonight and check on this DEET, is 
that--I think that was what Mr. Markey said--because we, you 
know, we use that. So, let's just--is a 1 percent chance that 
this is going to be harmful to the health of children, is that 
reasonable or unreasonable?
    Mr. Stratton. It depends on the circumstances.
    Mr. Gordon. Okay. Well, why don't you give me 
circumstances, then, that would make it unreasonable and maybe 
some that would make it reasonable so that I can get a better 
feel of where you are and your difference between reasonable 
and reasonable? Rather than--I am not doing a good job creating 
these so I will let you create those facts.
    Mr. Stratton. I think what you have to do is look at the 
facts of each particular case as it occurred, and if it is in 
the one-child situation, I think you have to make a 
determination as to whatever caused that death is likely to 
cause more. You may be on the front end of the product, you may 
be on the back end of the product. What if the death occurred 
the day the product came out? Or what if the death occurred 10 
years later and that was the first death you had ever had due 
to the product?
    You have to take those kinds of factors into consideration. 
And frankly, every single one of these, as far as I know, every 
single one--that is too broad of a statement to make. But all 
of these--all is not too broad, I suppose. All of these issues 
are based upon scientific evidence and expert evidence that is 
produced to the Commission about why this product is defective 
or why this death occurred. And that is what most of the CPSC 
is: engineers, scientists, and people like that who are 
providing that information. We are the politically appointed 
adjudicatory body that then makes a determination based upon 
what they provide for us.
    So to suggest you can say that one death is reasonable or 
unreasonable, I am not willing to do it here today, because I 
might get over there and have a case and I might find a case 
where a death occurred in a particular way that I thought it 
was going to be recurring throughout the course of that 
product's life, and I might be willing to say it is 
unreasonable, or I might find a death that didn't do that. So 
it is impossible here to give you any kind of--it is 
irresponsible to give you any kind of percent, average, or any 
kind of hypothetical based upon that kind of factual or that 
lack of factual situation.
    Mr. Gordon. Well, how much more information could you have 
than this 7 years of study on the sleepwear?
    Mr. Stratton. I am unfamiliar with the 7 years, Mr. Gordon.
    Mr. Gordon. Well, let us just say, well let us just maybe 
make it a little more generic. A bunch. Apparently you have got 
a bunch of information on this. How much more do you need?
    Mr. Stratton. I don't know, because until the staff 
provides that information to the Commission, I am unaware of 
what they have or what they need.
    Mr. Gordon. Is there a role for the chairman to encourage 
the staff? I mean, is your role to wait till they come, or do 
you feel like somewhere your role might be to say, it has been 
several years, could you hurry this up, are we going to make a 
decision? Is that your role or not? What would you consider 
that?
    Mr. Stratton. I would say that is my role.
    Mr. Gordon. Okay. Well, I am sure you will be back and you 
will have more time to think about this in the future. But I 
would like to get a little better feel and maybe some examples 
of what is a reasonable risk versus an unreasonable risk of 
injury and death in terms of your office.
    Thank you sir.
    Mr. Stearns. I thank my colleague. We won't keep you too 
much longer. I think I have a few questions and then the 
ranking member has a few questions and then we will be 
complete. So we just ask for your patience here.
    Perhaps you are familiar with your predecessor. There was a 
Daisy BB gun recall case that she instituted last year. And I 
guess a question that we have on this side of the aisle is, do 
you intend to do anything on that or what is the status of your 
actions?
    Mr. Stratton. Mr. Chairman, as I understand that case, the 
status is that it has been sent to be heard before an 
administrative law judge to determine whether there should be a 
recall of the--I understand it is BB guns. I have intentionally 
not looked at this issue, and you will see why as soon as I am 
finished here. But that is my understanding of the status. And 
my further understanding is then the appeal from the 
administrative law judge is to the Consumer Products Safety 
Commission to the commissioners, and then we then sit as an 
adjudicatory or a quasi-judicial body to make that 
determination.
    So I am waiting, and maybe it is the lawyer in me or the 
fact that I have been in the judicial system, but I am waiting 
to see the evidence in that case and any action I will be 
taking will be as an adjudicator, one of three adjudicators 
that--to determine, based on the evidence, what should be done.
    Mr. Stearns. And what do you think that timeframe would be?
    Mr. Stratton. Mr. Chairman, I have no idea what the 
timeframe is right now.
    Mr. Stearns. You and I talked earlier, and my question was 
talking about children's sleepwear. I have one on upholstered 
furniture flammability. As I understand, the CPSC staff report 
on upholstered furniture flammability issued last October is 
the most extensive safety study and analysis in CPS history. It 
should be. It took a full 8 years to do this study. Generally, 
when they take that long, you wonder--and I guess, do you think 
we are at a point, after 8 years and the money we have 
invested, that there be a decision one way or the other, and 
can we expect this issue to be resolved shortly? And, if not, 
when?
    Mr. Stratton. Mr. Chairman, I will just reiterate. I don't 
know anything that I think should take 8 years. But once again, 
I wasn't there for it, and they may have some reasons it has 
taken that long. I doubt they will be able to convince me 
anything should take that long. And you won't be seeing things 
take that long, at least while I am there.
    Now, my understanding is they set a hearing in June for 
public input, a 2-day hearing for public input on these 
standards at the CPSC. Unfortunately, although I expected to be 
confirmed by then, I was not confirmed, so I didn't have a 
chance to attend the hearing or be privy to that. But the staff 
is assimilating that and they are going to present it to the 
Commission, and I suspect it is going to be sometime this fall 
that we are going to get that. But I don't have a better 
timeframe than that.
    I would like to say that I think when you go into one of 
these jobs, that you have absolute control over the staff and 
you can dictate when they get things to you. But I am not sure 
that is the case.
    Mr. Stearns. Okay. Let me conclude by just making an 
observation on this fixed amusement sites issues. There were 
320 million visitors last year at fixed-site parks; 99.99 
percent visitors had no ill effects. So--and sometimes, like we 
had recently this summer in which someone--there was a 
fatality. It turns out that the person was mentally challenged 
and tried to get out of the--pushed the lap bar up and caused, 
in many ways, his own problem. And so when you look at the 
statistics, they are very small in terms of fatality; and, in 
fact, the latest CPSC figures show a 14 percent drop in the 
number of injuries related to fixed-site rides since 2000.
    So I think when you hear things, some of it is myth and 
some of it is fact, and so as Mr. Bass has indicated earlier, 
some of these facts have to be gotten under control to 
understand. But that concludes my portion. And now the ranking 
member will do his concluding remarks.
    Mr. Markey. Thank you, Mr. Chairman. My only bit of dicta 
that I would add to what the chairman just said is that in 
almost every case that you are going to be asked to work on, 99 
percent of the devices will have worked well; only 1 percent, 
or a smaller percentage, will not have. So the question is not 
whether or not you are going to have to act to deal with 
situations where 50 percent or 75 percent of the devices are 
not working; in almost every instance your judgment is going to 
be applied to a situation where it is 1 percent or fewer of the 
devices are not working well.
    So, just applying that to West Nile right now, 99.9999 
percent of all Americans have yet to get West Nile disease. So 
perhaps it is inappropriate to have that as the lead story in 
America every day. But every American is thinking about this 
disease right now because they don't want their children, they 
don't want their parents, to be the ones who become the victims 
of something that from their perspective may be preventable.
    And that is where I put the roller coaster industry. It is 
unnecessary to have this gap that exists between mobile rides 
and fixed-site rides. And the only way in which you can deal 
with the fixed-site issue is to have some Federal jurisdiction. 
The roller coaster industry was able to build a loophole into 
the first Ronald Reagan budget in 1981. Up until 1981 you and 
your Agency did have jurisdiction over fixed-site amusement 
park rides, but the industry didn't want to be regulated 
anymore. They snuck it into that up-or-down omnibus budget bill 
in 1981, and since then your Agency has been without the 
authority; and the disparity between mobile rides and fixed-
site rides has risen as a result.
    Mr. Stearns. Will the gentleman yield?
    Mr. Markey. I would be glad to; glad to yield.
    Mr. Stearns. I think, though, Mr. Chairman, we have to 
understand that the difference between a fatality in which 
someone deliberately caused the problem, whereas it was a 
defect within the roller coaster--and this is not being 
differentiated when we make this discussion between the actual 
deficiency in the instrument versus the problem with the 
individual, for whatever reasons, being a daredevil, not fully 
understanding because of being mentally challenged--and so all 
of that I think has to be also put into perspective and I thank 
the gentleman.
    Mr. Markey. I thank the gentleman again. When I was a boy, 
and the gentleman from New Hampshire, Mr. Bass, made reference 
to it, Canobie Lake Park had the state-of-the-art roller 
coaster, this beautiful old wooden roller coaster which brings 
back many happy memories for Mr. Bass and myself and hundreds 
of thousands of others. Now, in this modern era, that Canobie 
Lake roller coaster, which still exists, is the equivalent of a 
Model T automobile compared to these supersonic-speed roller 
coasters that are being built and marketed to children across 
the United States today. The G-forces on many of these roller 
coasters are equal to the G-forces, the gravitational pull, 
that an astronaut is exposed to on the takeoff of the Shuttle. 
Well that's not the Canobie Lake roller coaster. This is 
something else altogether in terms of the speed and the danger 
that these roller coasters present.
    And by the way, Mr. Chairman, I have been waiting 4 years 
to have a hearing on roller coasters, so you are in loco roller 
coaster right now. You are subject to----
    Mr. Bass. Would the gentleman yield just for clarification?
    Mr. Markey. I will be glad to yield.
    Mr. Bass. For clarification, the gentleman surely doesn't 
mean, doesn't want to imply, that the Yankee Cannonball, which 
is one of the great roller coasters built in 1938 in Canobie 
Lake, is not to this day providing lots of enjoyment to many, 
many children all over the country. It is a great roller 
coaster, which although there may be more modern ones, this one 
is certainly still a great attraction and a lot of people from 
Massachusetts like to come up and spend their time in New 
Hampshire because Nantasket, I guess, is gone now, and I guess 
Revere Beach is gone and so forth.
    I yield back to the gentleman from Massachusetts.
    Mr. Markey. I thank the gentleman, and I wasn't really 
intending to leave that impression at all. I was only trying to 
point out that the relationship between the roller coaster 
built in 1938 that is still operating today and which has 
brought enjoyment to hundreds of thousands if not millions of 
families and young people, the equivalent of that is the 
equivalent of the casino in Hampton Beach of my youth, which 
still exists as well, being compared to Fox Woods in 
Connecticut. I mean it is--the scale is just so much greater, 
you know, that you might as well be talking about prehistoric 
time in terms of the type of entertainment environment that has 
been created.
    And so all we are saying here is that in the immortal words 
of Thomas Jefferson, the government must evolve to deal with 
changes, times, and customs and habits. And for children who 
are on these rides, they are not being put on your grandfather 
or father's roller coaster any longer. They are being put in a 
completely different situation. And I would just hope that that 
could be noted.
    Mr. Engel, who is a member of the full committee, and who 
is not a member of the subcommittee has asked me to pose to you 
the following question, Mr. Chairman. The previous 
administration was very supportive of a mandatory gun lock 
standard that would improve the effectiveness of the safety 
devices now found in the marketplace. In fact, Congressman 
Engel and others have sponsored a bill that I am a cosponsor 
of, pending before this committee, that would require the 
Consumer Products Safety Commission to craft such a standard. 
Do you share the previous administration's concern about the 
quality of gun locks found in the marketplace that are being 
marketed as safety and access prevention devices? And, if so, 
would you welcome the jurisdiction provided by the Engel bill 
so that you can deal with the safety implications of that 
consumer product; that is, hand guns?
    Mr. Stratton. Mr. Chairman, I welcome whatever jurisdiction 
you give us. And I look forward to you working out the 
amusement park jurisdiction because, as Thomas Jefferson would 
indicate, that is, I guess that is why you get elected to 
Congress. So we look forward to you all giving us direction on 
that as well as this one. And I know that we are currently 
working with the gunlock industry on voluntary standards. That 
is my information. I don't know personally. This is what I have 
been told. And so they are working on voluntary standards. So I 
always share the concern.
    I am not familiar specifically with the previous 
administration's concern, but I share that concern and I 
understand we are working on voluntary standards. If that 
doesn't work out, then we will see what the next step is.
    Mr. Markey. And I have one other unanimous consent request 
to you, Mr. Chairman, to place in the record of this hearing an 
exchange of letters between Representative Dennis Moore of 
Kansas and former Acting Chairman of the CPSC, Thomas Moore, 
concerning the need for implementation of a Federal standard 
for childproof caps on gasoline containers.
    Mr. Stearns. By unanimous consent so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81957.011
    
    [GRAPHIC] [TIFF OMITTED] 81957.012
    
    [GRAPHIC] [TIFF OMITTED] 81957.013
    
    [GRAPHIC] [TIFF OMITTED] 81957.014
    
    [GRAPHIC] [TIFF OMITTED] 81957.015
    
    [GRAPHIC] [TIFF OMITTED] 81957.016
    
    [GRAPHIC] [TIFF OMITTED] 81957.017
    
    Mr. Markey. I thank you very much. And I thank you, Mr. 
Chairman, for coming in to see us today. You have one of the 
greatest jobs in the government. You can do so much good, and I 
hope that in your tenure you take full advantage of all the 
opportunities which are going to be presented to you.
    Mr. Stratton. Thank you.
    Mr. Stearns. I thank my colleague and I thank my other 
colleagues for their participation. And, Mr. Stratton, you 
have--as I understand it, other than your confirmation hearing, 
this is really your first congressional hearing. So 
congratulations. You went through, passed with flying colors, 
and we appreciate your participation--you and your staff who 
have been taking voluminous notes behind you. So I am sure they 
will have lots of information to give you. So again, thank you 
for coming and we look forward to seeing you and talking with 
you again.
    Mr. Stratton. Thank you, Mr. Chair.
    Mr. Stearns. The committee is adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
